Warning
As of: June 17, 2020 6:06 PM Z

State v. Dotson
Court of Appeal of Louisiana, Fourth Circuit
February 17, 2016, Decided
NO. 2015-KA-0191
Reporter
187 So. 3d 79 *; 2016 La. App. LEXIS 253 **; 2015-0191 (La.App. 4 Cir. 12/17/16);

Overview

STATE OF LOUISIANA VERSUS DERRICK A.
DOTSON

Subsequent History: Writ granted by State v. Dotson,
216 So. 3d 809, 2017 La. LEXIS 628 (La., Mar. 24,
2017)
Reversed by, Remanded by State v. Derrick, 2017 La.
LEXIS 2321 (La., Oct. 18, 2017)

Prior History: [**1] APPEAL FROM CRIMINAL
DISTRICT COURT ORLEANS PARISH. NO. 514-318,
SECTION "G". Honorable Julian A. Parker, Judge.

HOLDINGS: [1]-In an appeal of defendant's 2014
conviction and sentence for forcible rape, under La.
Const. art. I, § 17, and La. Code Crim. Proc. Ann. art.
797, the trial court's erroneous denial of defendant's
challenge for cause required the reversal of defendant's
conviction because the prospective juror stated during
voir dire that her mother had been raped and murdered
and that the event might have a bearing on her ability to
be a fair and impartial juror; defendant's subsequent
challenge of the prospective juror for cause was denied,
defendant had to use a peremptory challenge to excuse
the prospective juror, and he thereafter exhausted his
remaining peremptory challenges; and, in reviewing the
prospective juror's complete voir dire testimony, bias,
prejudice, or the inability to render judgment according
to law could be reasonably implied.

Disposition: REVERSED AND REMANDED.

Outcome
Judgment reversed and remanded.

Core Terms

LexisNexis® Headnotes

trial court, juror, prospective juror, challenge for cause,
impartial, rape, aggravated, peremptory challenge,
sentence, voir dire, murdered, sexual assault, forcible
rape, questioning, kidnapping, replied

Case Summary

Criminal Law & Procedure > Juries &
Jurors > Peremptory Challenges > Entitlement
Criminal Law & Procedure > Juries & Jurors > Voir
Dire > Questions to Venire Panel

Tori Simkovic

Appendix A, 1a

Page 2 of 6
187 So. 3d 79, *79; 2016 La. App. LEXIS 253, **1
HN1[

] Peremptory Challenges, Entitlement

La. Const. art. I, § 17 guarantees to a defendant the
right to full voir dire examination of prospective jurors
and the right to challenge jurors peremptorily.

Criminal Law & Procedure > Juries &
Jurors > Peremptory Challenges > Number of
Challenges
HN2[ ]
Peremptory
Challenges

Challenges,

Number

of

In trials of offenses necessarily punishable by
imprisonment at hard labor, each defendant shall have
12 peremptory challenges, and the State shall have 12
for each defendant. La. Code Crim. Proc. Ann. art. 799.

Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause > Bias & Impartiality

HN6[

] Standards of Review, Abuse of Discretion

Determinations on excluding a prospective juror for
cause are made on a case-by-case basis. A trial court is
vested with broad discretion in ruling on challenges for
cause, and its ruling will only be reversed when a review
of the voir dire as a whole reveals an abuse of
discretion.

] Challenges for Cause, Bias & Impartiality

See La. Code Crim. Proc. Ann. art. 797.

Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause > Determinations

Criminal Law & Procedure > Appeals > Reversible
Error > Juries & Jurors
Criminal Law & Procedure > Juries &
Jurors > Peremptory Challenges > Number of
Challenges
Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review
HN5[

Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause > Judicial Discretion

Criminal Law & Procedure > Appeals > Reversible
Error > Juries & Jurors

] Juries & Jurors, Challenges for Cause

To ensure a fair and impartial trial, the State and
defendant can challenge a juror for cause. La. Code
Crim. Proc. Ann. art. 797.

HN4[

Criminal Law & Procedure > Appeals > Standards of
Review > Abuse of Discretion

Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review

Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause
HN3[

defendant's challenge for cause that results in the
deprivation of one of his peremptory challenges
constitutes a substantial violation of his constitutional
and statutory rights, requiring reversal of his conviction
and sentence. Prejudice is presumed when a
defendant's challenge for cause is erroneously denied
and he has exhausted all of his peremptory challenges.
Accordingly, to establish reversible error in the denial of
one of his challenges for cause, a defendant must show:
(1) that he exhausted all of his peremptory challenges;
and (2) that the trial court erred in refusing to grant his
challenge for cause.

] Reversible Error, Juries & Jurors

When a defendant uses all 12 of his peremptory
challenges, a trial court's erroneous ruling on a

HN7[

] Challenges for Cause, Determinations

When a juror expresses a predisposition as to the
outcome of a trial, a challenge for cause should be
granted. If after subsequent questioning, or
rehabilitation, the juror exhibits the ability to disregard
previous views and make a decision based on the
evidence presented at trial, the challenge is properly
denied. When assessing whether a challenge for cause
should be granted, the district judge must look at the
juror's responses during his or her entire testimony, not
just isolated answers.

Tori Simkovic

Appendix A, 2a

Page 3 of 6
187 So. 3d 79, *79; 2016 La. App. LEXIS 253, **1
Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause > Determinations
Criminal Law & Procedure > Juries &
Jurors > Challenges for Cause > Judicial Discretion
HN8[

] Challenges for Cause, Determinations

A prospective juror's seemingly prejudicial response is
not grounds for an automatic grant of a challenge for
cause, and a trial court does not abuse its discretion
when denying the challenge, if after further questioning
the potential juror demonstrates a willingness and ability
to decide the case impartially according to the law and
evidence.

Counsel: Leon A. Cannizzaro, Jr., District Attorney,
Matthew C. Kirkham, Assistant District Attorney, Parish
of Orleans, New Orleans, LA, COUNSEL FOR
APPELLEE/STATE OF LOUISIANA.
Mary Constance Hanes, LOUISIANA APPELLATE
PROJECT, New Orleans, LA, COUNSEL FOR
DEFENDANT/APPELLANT.

The defendant Derrick A. Dotson was charged by grand
jury indictment in Count 1 with the aggravated rape of
K.T.; in Count 2 with the aggravated kidnapping of K.T.;
in Count 3 with the aggravated rape of [**2] H.B. and in
Count 4 with the aggravated kidnapping of H.B.1
The defendant was tried as to Count 1 and Count 3.
After trial, the twelveperson jury returned a verdict of
guilty of forcible rape on Count 3 but was unable to
reach a verdict on Count 1, whereupon the trial court
declared a mistrial as to that count.2
[Pg 2] Subsequently, the trial court denied defendant's
motion for a new trial and conducted a habitual offender
hearing. Initially, the trial court sentenced him to serve
forty years at hard labor. Later, the trial court
adjudicated the defendant a third-felony habitual
offender, vacated his original sentence, and
resentenced him to life imprisonment at hard labor,
without the benefit of parole, probation, or suspension of
sentence.

Facts of the Case
For the purposes of this opinion only a brief synopsis of
the underlying facts of the case are necessary.

Judges: (Court composed of Judge Terri F. Love,
Judge Roland L. Belsome, Judge Joy Cossich Lobrano).
LOBRANO, J., DISSENTS.

Opinion
[*80] [Pg 1] Defendant Derrick A. Dotson appeals his
2014 conviction and sentence for forcible rape, for
which he was adjudicated a third-felony habitual
offender and sentenced to the mandatory term of life
imprisonment at hard labor, without benefit of parole,
probation, or suspension of sentence. For the reasons
that follow we find that the trial court's erroneous denial
of the defendant's challenge for cause requires the
reversal of the defendant's conviction.

In January of 1994, K.T. reported to the New Orleans
Police Department (NOPD) that she had been sexually
assaulted. At that time, she gave a statement to the
investigating officer, [**3] Detective Debbie Coffee, and
underwent a sexual assault exam. K.T. related to the
officer the events that transpired. She stated that while
crossing the street in Eastern New Orleans, a man she
recognized as someone with whom her mother had
worked with at one time summoned her to his vehicle.3
When she approached she noticed a gun in his lap. He
directed her to get into the car and drove to a wooded
area. Still in possession of the gun, he forced K.T. to
engage in sexual intercourse. He later dropped her off
near where he had initiated the encounter. [*81] The
police investigation did not lead to a suspect.
In February of 1996, H.B. reported to the NOPD that

1 The

aggravated rape charges are violations of La. R.S. 14:42
and the aggravated kidnapping charges are violations of La.
R.S. 14:44.
2 Ultimately,

Procedural History

3 Although,

Counts 1, 2, and 4 were nolle prosequied.
K.T. recognized the defendant she did not know

his name.

Tori Simkovic

Appendix A, 3a

Page 4 of 6
187 So. 3d 79, *81; 2016 La. App. LEXIS 253, **3
she had been sexually assaulted. Detective Alan
Gressett interviewed H.B. and she was transported to
the [Pg 3] hospital where she underwent a sexual
assault exam. In her interview with Det. Gressett, H.B.
explained that her attacker had appeared at her home
earlier in the day. He knocked on the door and asked for
H.B.'s brother. Her brother recognized the man as
someone who had come to the door previously asking
for money.4 The man claimed that he was there to thank
H.B.'s [**4] brother for the money. Shortly thereafter her
brother left for work. H.B. was home alone and the man
returned. This time he claimed to be locked out of his
house and asked H.B. to place a call for him. The phone
number did not work and she returned to the door to
inform the man. At that time, he forced himself into the
home and sexually assaulted H.B. Like in K.T.'s case,
the investigation did not yield a suspect.
In 2010, NOPD Det. Decynda Barnes was assigned to
the NOPD Cold Case Homicide Division. At that time,
the division was investigating unsolved rape cases. She
ran the DNA collected from the victims' through CODIS
and received a DNA letter identifying the DNA match. In
both the case involving K.T. and the one involving H.B.,
the DNA match was to Derrick Dotson. She contacted
the victims, generated a police report for the cases, and
secured arrest warrants in both cases.
As the procedural history states, the defendant was
tried and convicted of the forcible rape of H.B., but the
jury was unable to reach a verdict in the forcible rape of
K.T. At trial, the defendant testified and maintained that
he had been in romantic [**5] relationships with both
K.T. and H.B. He further stated that the sexual
encounters were consensual.
[Pg 4] Assignments of Error

could not be a fair and impartial juror. More specifically,
during voir dire it was determined that the prospective
juror's mother had been raped and murdered. When
asked by the trial court whether the fact that her mother
had been raped and murdered would have any bearing
on her ability to be a fair and impartial juror in the case,
the prospective juror replied: "Yes, it might." No further
questioning was conducted of the prospective juror on
that issue.
HN1[ ] Louisiana Constitution article I, § 17
guarantees to a defendant the right to full voir dire
examination of prospective jurors [**6] and the right to
challenge jurors peremptorily. HN2[ ] In trials of
offenses necessarily punishable by imprisonment at
hard labor, such as in the present case, each defendant
shall have twelve peremptory challenges, and the State
shall have twelve for each defendant.5 Additionally,
HN3[ ] to ensure a fair [*82] and impartial trial, the
State and defendant can challenge a juror for cause.6
[Pg 5] HN5[ ] When a defendant uses all twelve of his
peremptory challenges, a trial court's erroneous ruling
on a defendant's challenge for cause that results in the
deprivation of one of his peremptory challenges
constitutes a substantial violation of his constitutional
and statutory rights, requiring reversal of his conviction
and sentence.7 Prejudice is presumed when a
defendant's [**7] challenge for cause is erroneously
denied and he has exhausted all of his peremptory
challenges.8 Accordingly, to establish reversible error in

5 La.

C.Cr.P. art. 799.

6 HN4[

On appeal, the defendant raises two assignments of
error. First, he maintains that the trial court erred in
denying his challenge for cause of a prospective juror.
Second, the defendant argues that the trial court abused
its discretion in refusing to grant defendant's motion for
mistrial regarding the State's DNA expert's testimony.

Assignment of Error Number One
In his first assignment of error, the defendant argues
that the trial court erred in denying his challenge for
cause of a prospective juror on the grounds that she

] La. C.Cr.P. Art. 797 — Challenge for Cause reads
in pertinent part:
The state or the defendant may challenge a juror for cause on
the ground that:
(2) The juror is not impartial, whatever the cause of his
partiality. An opinion or impression as to the guilt or
innocence of the defendant shall not of itself be sufficient
ground of challenge to a juror, if he declares, and the
court is satisfied, that he can render an impartial verdict
according to the law and the evidence.
7 State

v. Juniors, 2003-2425, p. 7-8 (La. 6/29/05), 915 So.
2d 291, 304; State v. Fields, 2013-1493, p. 22 (La. App. 4
Cir. 10/8/14), 151 So. 3d 756, 771.
8 State

4 On

that occasion, H.B.'s brother had given the man five
dollars.

v. Carmouche, 2001-0405, p. 8 (La. 5/14/02), 872 So.
2d 1020, 1028; State v. Kirk, 2011-1218, p. 10-11 (La. App. 4
Cir. 8/8/12), 98 So. 3d 934, 941.

Tori Simkovic

Appendix A, 4a

Page 5 of 6
187 So. 3d 79, *82; 2016 La. App. LEXIS 253, **7
the denial of one of his challenges for cause, a
defendant must show: (1) that he exhausted all of his
peremptory challenges; and (2) that the trial court erred
in refusing to grant his challenge for cause.9
In this case, the defendant exhausted his peremptory
challenges, thus the issue is whether the trial court
erred when it denied his challenge for cause. HN6[ ]
Determinations on excluding a prospective juror for
cause are made on a case-bycase basis.10 Additionally,
this Court recognizes that a trial court is vested with
broad discretion in ruling on challenges for cause, and
its ruling will only be reversed when a review of the voir
dire as a whole reveals an abuse of discretion.11
[Pg 6] On appeal, the defendant maintains that the
prospective juror at issue expressed her inability to be
impartial, establishing justification for a challenge for
cause in accordance with La. C.Cr.P. art. 797. The
record is clear that when asked the routine question by
the court as to whether she or a close friend or relative
had ever been a crime victim, [**8] the prospective juror
replied that her mother had been raped and murdered.
As previously stated, when asked whether that event
would have any bearing on her ability to be a fair and
impartial juror in the case, she replied: "Yes, it might."
Thereafter, neither the trial judge, the State, nor
defense counsel questioned the prospective juror any
further concerning her answer.12
The record further reflects that the defendant
subsequently challenged the prospective juror for
cause. When the trial court asked the nature of the
cause for which he was challenging the prospective
juror, the defense counsel stated "her mother was
murdered and raped." The trial court declared that that
was not [*83] "cause." Defense counsel began to
reply, "[s]he said that would --," but before he could

finish his statement the trial court cut him off, stating:
"No, she didn't." Defense counsel replied: "Yes, she
did." Ultimately, the defendant had to use a peremptory
challenge to excuse the prospective juror and thereafter
exhausted [**9] his remaining peremptory challenges.
HN7[ ] When a juror expresses a predisposition as to
the outcome of a trial, a challenge for cause should be
granted.13 If after subsequent questioning, or [Pg 7]
rehabilitation, the juror exhibits the ability to disregard
previous views and make a decision based on the
evidence presented at trial, the challenge is properly
denied.14 When assessing whether a challenge for
cause should be granted, the district judge must look at
the juror's responses during his or her entire testimony,
not just isolated answers.15
The State relies heavily on State v. Robinson, in
support of the trial court's denial of the challenge for
cause.16 In Robinson, a prospective juror stated in voir
dire that she did not know whether she could be
impartial in a second degree murder prosecution
because three of her children had been victims of
crimes. This Court found that a review of the voir dire in
its entirety "did not reveal facts from which bias,
prejudice, or inability to render judgment according to
law might be reasonably implied".17 That is what
distinguishes this case from Robinson.
The facts of this case are more on point with State v.
Holmes.18 The [**10] defendant in Holmes was
charged with aggravated rape, aggravated kidnapping,
and aggravated crime against nature. This Court found
that a prospective juror, who could not assure the court
that her husband's kidnapping would not affect her
judgment in the case, was not "impartial."19 Likewise, in
this case, the prospective juror's past experience

13 State
9 Carmouche,

supra; Juniors, 2003-2425, p. 8, 915 So. 2d at

v. Lindsey, 2006-255, p. 3 (La. 1/17/07), 948 So.2d
105, 107-08.

305.
14 Id.
10 State

v. Ballard, 98-2198 (La.10/19/99), 747 So.2d 1077,

1080.

15 Id.

11 State

16 State

v. Anthony, 98-406, p. 22 (La. 4/11/00), 776 So. 2d
376, 391; State v. Brown, 2012-0626, p. 14 (La. App. 4 Cir.
4/10/13), 115 So. 3d 564, 574.

v, Robinson, 08-0652 (La.App. 4 Cir. 5/13/09), 11
So.3d 613 (Belsome, J., concurring).
17 Id.

at 12-13, 11 So.3d at 621.

12 Later,

when the voir dire panel as a group was asked by the
State why a victim might not come forward in a case such as
the present one, the prospective juror volunteered: "There's
shame involved."

18 State
19 Id.

v. Holmes, 619 So.2d 761 (La.App. 4 Cir. 5/27/93).

at 765.

Tori Simkovic

Appendix A, 5a

Page 6 of 6
187 So. 3d 79, *83; 2016 La. App. LEXIS 253, **10
impacts her ability to be impartial.
End of Document

[Pg 8] This Court appreciates that HN8[ ] a
prospective juror's seemingly prejudicial response is not
grounds for an automatic grant of a challenge for cause,
and a trial court does not abuse its discretion when
denying the challenge, if after further questioning the
potential juror demonstrates a willingness and ability to
decide the case impartially according to the law and
evidence.20 Unfortunately, we do not have the benefit of
further questioning to determine that the potential juror
possessed the willingness and ability to decide the case
impartially according to the law and evidence. The only
indicator we have regarding whether her mother's rape
and murder would have an impact on her ability to be
impartial in the defendant's prosecution for forcible rape
is an affirmative response of "yes, it might."
Additionally, [**11] when the defendant raised the
challenge for cause, the trial court did not allow a full
recitation of the prospective juror's response. Moreover,
the transcript reflects that the trial court was adamant
that the prospective juror did not say anything that
would denote her [*84] inability to be impartial. In
reviewing this prospective juror's complete voir dire
testimony, bias, prejudice, or the inability to render
judgment according to law can be reasonably implied.
Thus, we find that the trial court abused its discretion in
denying the challenge for cause.
Accordingly, the defendant's conviction is reversed and
the case is remanded to the trial court for further
proceedings.21
REVERSED AND REMANDED
Dissent by: LOBRANO

Dissent
LOBRANO, J., DISSENTS.
I respectfully dissent.

20 See

State v. Dorsey, 10-0216, pp. 23-24 (La. 9/7/11); 74
So.3d 603, 622-623.
21 This

Court pretermits any discussion of the defendant's
second assignment of error.

Tori Simkovic

Appendix A, 6a

Positive
As of: June 17, 2020 6:06 PM Z

State v. Dotson
Supreme Court of Louisiana
October 18, 2017, Decided
NO. 2016-K-0473
Reporter
234 So. 3d 34 *; 2017 La. LEXIS 2321 **; 16-0473 (La. 10/18/17);; 2017 WL 4681942

Case Summary
STATE OF LOUISIANA VERSUS DERRICK A.
DOTSON

Overview

Subsequent History: On remand at State v. Dotson,
2017 La. App. LEXIS 2526 (La.App. 4 Cir., Dec. 18,
2017)

Prior History: [**1] ON WRIT OF CERTIORARI TO
THE COURT OF APPEAL, FOURTH CIRCUIT,
PARISH OF ORLEANS.

HOLDINGS: [1]-In a trial for aggravated rape, it was not
reversible error to deny a challenge for cause under La.
Code Crim. Proc. Ann. art. 797(2) as to a prospective
juror whose mother had been had been raped and
murdered and who, when asked by the trial court if the
circumstances related to her mother's death had any
bearing on her ability to be impartial, stated, "Yes, it
might," because no follow-up questions were posed to in
fact establish that the prospective juror could not be fair
and impartial. The use of the word "might" rendered the
response equivocal; thus the need for rehabilitation by
the state was not triggered.

State v. Dotson, 187 So. 3d 79, 2016 La. App. LEXIS
253 (La.App. 4 Cir., Feb. 17, 2016)

Disposition: REVERSED and REMANDED.

Outcome
Reversed and remanded.

Core Terms

LexisNexis® Headnotes

prospective juror, juror, impartial, rape, challenge for
cause, trial court, voir dire, questions, trial judge,
appellate court, murdered, equivocal, defense counsel,
fair and impartial, peremptory challenge, crime victim,
responses, aggravated, abused, cases, bias,
rehabilitate, voir dire examination, trial court's denial,
render a judgment, instant case, sentence, ordeal,
reasons

Constitutional Law > ... > Fundamental
Rights > Criminal Process > Right to Jury Trial
Criminal Law & Procedure > Juries &
Jurors > Peremptory Challenges > Number of

Tori Simkovic

Appendix B, 7a

Page 2 of 10
234 So. 3d 34, *34; 2017 La. LEXIS 2321, **1
Challenges
Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review
HN1[

] Criminal Process, Right to Jury Trial

La. Const. art. I, § 17 guarantees a defendant the right
to full voir dire examination of prospective jurors and to
challenge jurors peremptorily. The number of
peremptory challenges granted to a defendant in a trial
of an offense punishable necessarily by imprisonment at
hard labor, such as the one currently before this court, is
fixed by law at twelve. La. Const. art. I, § 17(A); La. La.
Code Crim. Proc. Ann. art. 799. When a defendant uses
all twelve of his peremptory challenges, an erroneous
ruling by a trial court on a challenge for cause that
results in depriving the defendant of a peremptory
challenge constitutes a substantial violation of the
defendant's constitutional and statutory rights, requiring
reversal of the conviction and sentence. A judgment or
ruling shall not be reversed by an appellate court
because of any error, defect, irregularity, or variance
which does not affect substantial rights of the accused.
Therefore, prejudice is presumed when a challenge for
cause has been erroneously denied by a trial court and
the defendant exhausts all peremptory challenges
statutorily afforded to the defendant. In summary, where
all peremptory challenges have been used, as in this
case, a defendant need only demonstrate the erroneous
denial of a challenge for cause to establish reversible
error warranting reversal of a conviction and sentence.

Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review
HN2[

] Appellate Review, Standards of Review

If all available peremptory challenges have not been
used, a defendant must show some prejudice to
overcome the requirements of La. Code Crim. Proc.
Ann. art. 921.

Code Crim. Proc. Ann. art. 797(2). Additionally, art.
797(3) provides a defendant may challenge a juror for
cause on the ground that the relationship, whether by
blood, marriage, employment, friendship, or enmity
between the juror and the defendant, the person injured
by the offense, the district attorney, or defense counsel,
is such that it is reasonable to conclude that it would
influence the juror in arriving at a verdict. A juror who
will not accept the law as given to him by the court may
also be challenged for cause by the defendant. art.
797(4).

Criminal Law & Procedure > Juries & Jurors > Voir
Dire > Questions to Venire Panel
Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review
HN4[

Voir dire examination of prospective jurors is designed
to discover bases for challenges for cause and to
secure information for an intelligent exercise of
peremptory challenges. The questions propounded are
designed to determine any potential adverse influence
on the prospective jurors ability to render an impartial
verdict. A prospective juror's responses during voir dire
cannot be considered in isolation. A trial judge is vested
with broad discretion in ruling on challenges for cause,
and such a ruling is subject to reversal only when a
review of the entire voir dire reveals the judge abused
his discretion. The trial judge's refusal to excuse a
prospective juror on the ground he is not impartial is not
an abuse of discretion where, after further inquiry or
instruction (frequently called rehabilitation), the
prospective juror has demonstrated a willingness and
ability to decide the case impartially according to the law
and the evidence.

Criminal Law & Procedure > ... > Challenges for
Cause > Bias & Impartiality > Actual & Implied Bias
HN5[

Criminal Law & Procedure > ... > Challenges for
Cause > Bias & Impartiality > Actual & Implied Bias
HN3[

] Bias & Impartiality, Actual & Implied Bias

A defendant may challenge a juror for cause if the juror
is not impartial, whatever the cause of his partiality. La.

] Voir Dire, Questions to Venire Panel

] Bias & Impartiality, Actual & Implied Bias

The fact that a juror may have painful memories
associated with the subject of a criminal trial is not listed
as a basis for a challenge for cause under La. Code
Crim. Proc. Ann. art. 797. That a prospective juror
personally has been the victim of a crime will not
necessarily preclude that prospective juror from serving

Tori Simkovic

Appendix B, 8a

Page 3 of 10
234 So. 3d 34, *34; 2017 La. LEXIS 2321, **1
on a jury. A prospective juror's relationship to a person
who was the victim of a crime likewise does not
disqualify a prospective juror from serving.

Criminal Law & Procedure > ... > Challenges for
Cause > Bias & Impartiality > Actual & Implied Bias
HN6[

] Bias & Impartiality, Actual & Implied Bias

The law does not require that a jury be composed of
individuals who have not personally been a crime victim
or who do not have close friends or relatives who have
been crime victims. It requires that jurors be fair and
unbiased. Therefore, the prospective jurors past
experience as, or relationship to, a victim of a crime
similar to that for which the defendant is being tried
must be examined in conjunction with other evidence in
the record of the voir dire proceeding that bears on the
prospective jurors ability to be fair and impartial and to
apply the law as instructed by the trial court.

exercise of that discretion has been arbitrary or
unreasonable, resulting in prejudice to the accused.
This standard of review is utilized because the trial
judge has the benefit of seeing the facial expressions
and hearing the vocal intonations of the members of the
jury venire as they respond to questions by the parties
attorneys. Such expressions and intonations are not
readily apparent at the appellate level where review is
based on a cold record. An appellate court should
accord great deference to the trial court's ruling on a
challenge for cause, which is necessarily based, in part,
on the court's personal observations during questioning.

Judges: WEIMER, Justice. Hughes, J., dissents for the
reasons given by Guidry, J. Guidry, J., dissents and
assigns reasons.

Opinion by: WEIMER
Criminal Law & Procedure > Juries & Jurors > Voir
Dire
HN7[

Opinion

] Juries & Jurors, Voir Dire

"Might," in the context of juror responses to voir dire,
may be defined as expressing especially a shade of
doubt or a smaller degree of possibility or permission.

Criminal Law & Procedure > ... > Challenges for
Cause > Bias & Impartiality > Actual & Implied Bias
Criminal Law & Procedure > ... > Challenges for
Cause > Appellate Review > Standards of Review
HN8[

] Bias & Impartiality, Actual & Implied Bias

La. Code Crim. Proc. Ann. art. 797(2) does not require
that a prospective juror state with absolute certainty that
he/she cannot be impartial in order to be removed for
cause. However, in the absence of such a statement,
the trial court's denial of a challenge for cause will not
be reversed if, on review of the entire voir dire
examination, the prospective juror demonstrates a
willingness and ability to decide the case impartially
according to the law and evidence. Reversal is
appropriate only where it appears, upon review of the
voir dire examination as a whole, that the trial judges

[*37] [Pg 1] WEIMER, Justice.
The state's writ application was granted to consider
whether the court of appeal erred in reversing
defendant's conviction, finding that the trial judge
abused his discretion in denying a challenge for cause
of a prospective juror. During voir dire, the prospective
juror gave an equivocal answer as to whether she could
be impartial after indicating her mother had been the
victim of a violent crime. The record of the voir dire
proceeding is bereft of any information that would clarify
the prospective juror's response, and the remainder of
her responses during voir dire indicate that she would
be impartial. As such, deference should have been
afforded by the appellate court to the trial court's ruling
on the challenge. For the reasons that follow, the
decision of the appellate court is reversed, and this
matter is remanded to the appellate court for
determination of the remaining issue raised on appeal
by defendant.
[Pg 2] FACTUAL AND PROCEDURAL [**2]
BACKGROUND

Tori Simkovic

Appendix B, 9a

Page 4 of 10
234 So. 3d 34, *37; 2017 La. LEXIS 2321, **2
In 1994, K.T. was crossing the street in eastern New
Orleans when a man she recognized as someone who
had worked with her mother in the past called her to his
car. When she walked over, she saw a gun on his lap.
He ordered her to get into the car and then drove to a
wooded area where he forced K.T. to engage in sexual
intercourse. K.T. reported the incident and underwent a
sexual assault exam, but the police investigation did not
lead to any suspects.
In 1996, H.B. was at home when a man came to the
door and asked to speak to her brother. She recognized
the man as someone to whom her brother had
previously given money. The man claimed that he
wanted to thank H.B.'s brother for the money. Later,
when H.B's brother left for work, the man returned and
claimed that he was locked out of his house. He asked
H.B. to make a telephone call for him, and, when she
returned to tell him the number did not work, he forced
his way into the house and sexually assaulted her. H.B.
reported the crime and underwent a sexual assault
examination, but the police investigation did not yield
any suspects.
In 2010, while investigating unsolved rape cases, a
detective of the police force searched the [**3] national
DNA data base (CODIS) and discovered that DNA from
both cases matched that of Derrick A. Dotson
(defendant). The state subsequently charged defendant
with two counts of aggravated rape. The jury found
defendant guilty of the 1996 forcible rape of H.B., but
could not reach a verdict as to the charge involving K.T.
The court sentenced defendant as a third felony
offender to life imprisonment at hard labor without
benefit of parole, probation, or suspension of sentence.
The court of appeal majority reversed defendant's
conviction, finding the trial court abused its discretion by
denying defendant's challenge for cause of a
prospective juror after defendant exhausted all of his
peremptory challenges. Dotson, 15-0191, p. 8 (La.App.
4 Cir. 12/17/16), 187 So.3d 79, 83-84. At issue was
whether [*38] the prospective juror, whose mother had
been raped and murdered, could be impartial. When
asked by the trial court if the circumstances related to
her mother's death had any bearing on her ability to be
impartial, she stated, "Yes, it might." No direct follow-up
questions were asked by the trial court, the state, or the
defense as to this particular response. Although the
prospective juror was not asked to, and did not, provide
any additional [**4] insight to this particular response,
the appellate court found that "bias, prejudice, or the
inability to render judgment according to law can be

reasonably implied" from her initial response. Dotson,
15-0191 at 8, 187 So.3d at 84. Accordingly, the trial
court was found to have abused its discretion by
denying defendant's challenge for cause.
The state's writ application was granted to determine if
the trial court abused its discretion in finding that
defendant failed to prove that the prospective juror was
not impartial. State v. Dotson, 16-0473 (La. 3/24/17),
216 So.3d 809.

DISCUSSION
HN1[ ] Louisiana Constitution article I, section 17
guarantees a defendant the "right to full voir dire
examination of prospective jurors and to challenge
jurors peremptorily." State v. Juniors, 03-2425, p. 7
(La. 6/29/05), 915 So.2d 291, 304. The number of
peremptory challenges granted to a defendant in a trial
of an offense punishable necessarily by imprisonment at
hard labor, such as the one currently before this court,1
is fixed by law at twelve. See La. Const. art. I, § 17(A);
La. C.Cr.P. [Pg 4] art. 799.2 When a defendant uses all
twelve of his peremptory challenges, an erroneous
ruling by a trial court on a challenge for cause that
results in depriving the defendant of a peremptory
challenge constitutes a substantial violation of the
defendant's constitutional and statutory rights, requiring
reversal of the conviction [**5] and sentence. Juniors,
03-2425 at 7-8, 915 So.2d at 304; see La. C.Cr.P. art.
921 ("A judgment or ruling shall not be reversed by an
appellate court because of any error, defect, irregularity,
or variance which does not affect substantial rights of
the accused."). Therefore, prejudice is presumed when
a challenge for cause has been erroneously denied by a
trial court and the defendant exhausts all peremptory

1 See

La. R.S. 14:42.1(B) ("Whoever commits the crime of
second degree rape shall be imprisoned at hard labor for not
less than five nor more than forty years. At least two years of
the sentence imposed shall be without benefit of probation,
parole, or suspension of sentence."); see also La. R.S.
14:42.1(C) ("For all purposes, "forcible rape" and "second
degree rape" mean the offense defined by the provisions of
this Section and any reference to the crime of forcible rape is
the same as a reference to the crime of second degree
rape.").
2 In

pertinent part, La. C.Cr.P. art. 799 provides: "In trials of
offenses punishable by death or necessarily by imprisonment
at hard labor, each defendant shall have twelve peremptory
challenges, and the state twelve for each defendant."

Tori Simkovic

Appendix B, 10a

Page 5 of 10
234 So. 3d 34, *38; 2017 La. LEXIS 2321, **5
challenges statutorily afforded to the defendant.3
Juniors, 03-2425 at 8, 915 So.2d at 305 (citing State v.
Robertson, 92-2660, p. 3 (La. 1/14/94), 630 So.2d
1278, 1280, and State v. Ross, 623 So.2d 643, 644
(La. 1993)). In summary, where all peremptory
challenges have been used, as in this case, a defendant
need only demonstrate the erroneous denial of a
challenge for cause to establish reversible error
warranting reversal of a conviction and sentence. See
Juniors, 03-2425 at 8, 915 So.2d at 305.
[*39] HN3[ ] A defendant may challenge a juror for
cause if "[t]he juror is not impartial, whatever the cause
of his partiality." La. C.Cr.P. art. 797(2). Additionally,
La. C.Cr.P. art. 797(3) provides a defendant may
challenge a juror for cause on the ground that "[t]he
relationship, whether by blood, marriage, employment,
friendship, or enmity between the juror and the
defendant, the person injured by the offense, the [Pg 5]
district attorney, or defense counsel, is such that it is
reasonable to conclude [**6] that it would influence the
juror in arriving at a verdict." A "juror [who] will not
accept the law as given to him by the court" may also be
challenged for cause by the defendant. See La. C.Cr.P.
art. 797(4).
HN4[ ] Voir dire examination of prospective jurors is
designed to discover bases for challenges for cause and
to secure information for an intelligent exercise of
peremptory challenges. State v. Drew, 360 So.2d 500,
513 (La. 1978). The questions propounded are
designed to determine any potential adverse influence
on the prospective juror's ability to render an impartial
verdict. See id. A prospective juror's responses during
voir dire cannot be considered in isolation. See State v.
Frost, 97-1771, p. 8 (La. 12/1/98), 727 So.2d 417, 426.
A trial judge is vested with broad discretion in ruling on
challenges for cause, and such a ruling is subject to
reversal only when a review of the entire voir dire
reveals the judge abused his discretion. Robertson,
630 So.2d at 1281. The trial judge's refusal to excuse a
prospective juror on the ground he is not impartial is not
an abuse of discretion where, after further inquiry or
instruction (frequently called "rehabilitation"), the
prospective juror has demonstrated a willingness and
ability to decide the case impartially according to the law

3 HN2[

] If all available peremptory challenges have not been
used, a defendant must show some prejudice to overcome the
requirements of La. C.Cr.P. art. 921 (quoted supra). State v.
Robertson, 92-2660 (La. 1/14/94), 630 So.2d 1278, 1280.

and the evidence. Id.
During voir dire, the trial court was [**7] questioning
prospective juror number 9 ("K.C."), who indicated she
was an attorney, when the following exchange took
place:
[Court:] [K.C.], are you familiar with the people
involved in today's case?
[K.C.:] No, sir.
[Court:] Anything about the facts of the case?
[Pg 6] [K.C.:] It may be a case I've been reading
about in the paper, but I'm not sure.
[Court:] Okay. Hold that thought.
[Court:] Have you served on a jury before?
[K.C.:] Yes, sir.
[Court:] What kind of case?
[K.C.:] A possession of a narcotics case and the
defendant took an acquittal.
[Court:] Was that recently?
[K.C.:] A few years.
[Court:] Have you or close friends or relatives ever
worked in law enforcement?
[K.C.:] No, sir.
[Court:] Have you or a close friend or relative been
a crime victim?
[K.C.:] Yes, sir.
[Court:] Could you tell us a little bit about that?
[K.C.:] My mother was raped and murdered.
[Court:] Would that event have any bearing on your
ability to be a fair and impartial juror in today's
case?
[K.C.:] Yes, it might.
[Court:] Do you have any questions for me?
[K.C.:] No.
[Court:] Thank you very much. [Emphasis added.]
[*40] At this point, the trial court did not ask any followup questions of K.C.'s responses.
When K.C. was later questioned [**8] in chambers, the
following colloquy took place:
[Pg 7] The Court: .... [K.C.], number 9, said that she
saw something in the news.
[Defense:] That's the one that the mother was
raped and killed. The Court: [K.C.], would you have
a seat right here and make yourself comfortable.
[K.C.], earlier today when I asked you the question
do you know anything about the facts of the case,
you said I think this is the case I've been reading
about in the news. Is that what you said?
[K.C.]: Correct.
The Court: Can you expound on that?

Tori Simkovic

Appendix B, 11a

Page 6 of 10
234 So. 3d 34, *40; 2017 La. LEXIS 2321, **8
[K.C.]: I was thinking this man was a New Orleans
Police Officer. I've been reading some articles
about a police officer being accused of rape. It
doesn't sound like it from voir dire that it's the same
case.
The Court: If it turns out that this is not that case,
whatever you've been reading in the news about a
police officer, have any bearing on your ability to be
a fair and impartial juror?
[K.C.]: No.
The Court: State?
[State:] No questions.
The Court: Defense?
[Defense:] None, your Honor.
The trial judge's comment during voir dire ("Hold that
thought.") and the questions asked by the trial judge of
K.C. in chambers indicate that K.C. was taken into
chambers for further questioning [**9] regarding her
knowledge of the case based on media coverage. Aside
from recognizing that K.C.'s mother had been raped and
murdered, defense counsel did not revisit K.C.'s prior
response regarding whether her mother's ordeal would
affect K.C.'s ability to be impartial in defendant's cases.
When defense counsel later challenged K.C. for cause,
the following exchange took place:
[Pg 8] The Court: .... Panelist Number 9.
[State]: Acceptable.
[Defense]: Challenge for cause, Your Honor.
The Court: Cause based on what?
[Defense]: Her mother was murdered and raped.
The Court: That's not cause.
[Defense]: She said that would -The Court: No, she didn't.
[Defense]: Yes, she did. Also, she said she knows a
witness.
The Court: She never said that.
[Defense]: [K.C.] said that -- didn't she -The Court: What witness did she say she knew?
[Defense]: I don't remember.
[State]: Ann Montgomery, but she said she doesn't
remember really how she knows her. It would not
affect her ability to be fair and impartial.
The Court: Is that going to be D2?
[Defense]: No. Judge, she said —
The Court: Is that going to be D2? The cause is
denied.
[Defense]: It's denied.
The Court: Is that going to be D2?

[Defense]: If it has to be.
[**10] [Defense]: D2.
The Court: Well, it doesn't have to be. It can be J3.
[Defense]: She said —
The Court: Look, that's the fifth time you've told me
that. ...
[*41] [Pg 9] Defendant's challenge for cause as to K.C.
was related to the following facts: (1) K.C.'s mother was
raped and murdered; and (2) K.C. testified that her
mother's ordeal might affect her impartiality in this case.
Because the basis for defendant's challenge does not
involve a relationship described in La. C.Cr.P. art.
797(3) (quoted supra), the ground at issue in this case
is La. C.Cr.P. art. 797(2) (quoted supra).4
The above-quoted colloquy pertaining to defendant's
challenge reveals the trial judge found that K.C.'s "[y]es,
it might" response (to the trial judge's question
concerning whether her mother's ordeal would have a
bearing on her ability to remain impartial) alone was
insufficient to establish K.C. could not be impartial so as
to constitute cause for excusing her under La. C.Cr.P.
art. 797(2). In support of the trial judge's finding, the
state contends K.C.'s response in this regard is
equivocal and open to interpretation. Further, the state
urges that defense counsel was given an opportunity to
further question the prospective juror as to this
response, but did not do so. Lastly, [**11] given the
totality of the voir dire, because the prospective juror
never definitively stated she could not be impartial
based on her mother's rape and murder, the state
argues the trial court acted within its discretion by
denying defendant's challenge for cause of K.C. On the
other hand, defendant maintains K.C.'s response in and
of itself demonstrates she could not be impartial, the
state was obligated to rehabilitate K.C. and did not, and
the appellate court was correct in finding an abuse of
discretion by the trial court.
[Pg 9] Although the trial judge at times cut off defense

4 Courts

have imposed the test set forth in La. C.Cr.P. art.
797(3) (that is, the relationship is such that one might
reasonably conclude that it would influence the juror in arriving
at the verdict) in addressing a prospective juror's relationship
to others who are not listed in Clause (3). See State v
Robinson, 353 So.2d 1001, 1004 (La. 1977) (relationship with
people associated with law enforcement duties); State v.
Calloway, 343 So.2d 694, 696 (La. 1976) (nephew was a
police officer); State v. McClure, 258 La. 999, 249 So.2d 109,
113 (1971) (friendship with the clerk of court).

Tori Simkovic

Appendix B, 12a

Page 7 of 10
234 So. 3d 34, *41; 2017 La. LEXIS 2321, **11
counsel during the challenge phase, the record of the
voir dire indicates that defense counsel was in no way
deprived of an opportunity to question K.C. about her
"[y]es, it might" response regarding her mother's ordeal.
While in chambers, the trial judge afforded the parties
an opportunity to further question K.C. After reminding
the court that K.C. stated that her mother had been
raped and murdered, counsel for defendant declined to
further question K.C. in this regard. Furthermore,
contrary to defendant's assertion, the record does not
indicate that the trial judge did not have any recollection
of K.C.'s [**12] "[y]es, it might" response to the trial
judge's question during voir dire about K.C.'s ability to
be impartial. During the challenge phase, the trial judge
first simply observed that the fact that K.C.'s mother was
raped and murdered does not constitute cause.
HN5[ ] "[T]he fact that a juror may have painful
memories associated with the subject of a criminal trial
is not listed as a basis for a challenge for cause under
La.C.Cr.P. art. 797." State v. Magee, 13-1018, p. 12
(La.App. 5 Cir. 9/24/14), 150 So.3d 446, 454, writ
denied, 14-2209 (La. 10/2/15), 178 So.3d 581. That a
prospective juror personally has been the victim of a
crime will not necessarily preclude that prospective juror
from serving on a jury. State v. Dorsey, 10-0216, p. 3
(La. 9/7/11), 74 So.3d 603, 631. A prospective juror's
relationship to a person who was the victim of a crime
likewise does not disqualify a prospective juror from
serving. See id.; State v. Nix, 327 So.2d 301, 326 (La.
1975) (a prospective [*42] juror's relationship to a
murder victim—his brother-in-law—was insufficient to
establish cause for excusing the venireman).
HN6[ ] The law does not require that a jury be
composed of individuals who have not personally been
a crime victim or who do not have close friends or
relatives who have [Pg 11] been crime victims. It
requires that jurors be fair and unbiased. Juniors, 032425 at 11, 915 So.2d at 306. Therefore, the
prospective
juror's
past
experience
as,
or
relationship [**13] to, a victim of a crime similar to that
for which the defendant is being tried must be examined
in conjunction with other evidence in the record of the
voir dire proceeding that bears on the prospective juror's
ability to be fair and impartial and to apply the law as
instructed by the trial court. See Dorsey, 10-0216 at 3839, 74 So.3d at 631; Nix, 327 So.2d at 326.
Accordingly, the trial court did not abuse its discretion in
refusing to find that K.C.'s relationship with her mother,
who was raped and murdered, automatically rendered
K.C. unable to be impartial in these cases. Although the
record establishes a mother/daughter relationship, and

this court is sensitive to the impact of crime on a family
member, we are constrained by the record which
reflects no follow-up questions were posed to in fact
establish this prospective juror could not be fair and
impartial in these cases.
Upon the trial judge's recognition that K.C.'s relationship
with a rape victim was alone insufficient to disqualify
K.C., defense counsel referenced K.C.'s response to the
trial judge's question regarding her ability to be impartial
due to her mother's ordeal. Defense counsel interpreted
K.C.'s response as "yes," that is, K.C. could not be
impartial [**14] in the instant cases against defendant.
However, as the trial judge again correctly observed,
K.C. did not declare that her mother's rape and murder
would affect her ability to be impartial, as her affirmative
response was immediately qualified by an expression of
uncertainty—"it might."5 In this respect, K.C.'s testimony
differs from that of prospective juror number 20, who
testified that as a victim of molestation she could not be
impartial and who was dismissed by the trial [Pg 12]
court on a challenge for cause.6 Based on the
qualification of K.C.'s affirmative response, this court
cannot say that the trial court erred or abused its
discretion in finding that K.C. at no point declared that
she could not be impartial in these cases; nor from this

5 HN7[

] "Might" is defined as "expressing especially a shade
of doubt or a smaller degree of possibility or permission."
WEBSTER'S NEW WORLD DICTIONARY OF THE AMERICAN LANGUAGE
932 (College Edition 1964). Such definition confirms the
equivocalness of K.C.'s response.
6 Prospective

juror number 20 testified as follows:

The Court: Have you or any close friends or relatives
been a victim of a crime?
Juror [ ]: Yes.
The Court: Can you tell us a little bit about that?
Juror [ ]: My husband was murdered. My house was
broken into and I was molested at 12 years old.
The Court: Would those events have -Juror [ ]: Yes.
The Court: Let me finish the question. Would those
events have any bearing on your ability to be a fair and
impartial juror?
Juror [ ]: Yes.
The Court: So you could not serve as a fair and impartial
juror in this case?
Juror [ ]: That's correct.

Tori Simkovic

Appendix B, 13a

Page 8 of 10
234 So. 3d 34, *42; 2017 La. LEXIS 2321, **14
lone response can "bias, prejudice, or the inability to
render judgment according to law ... be reasonably
implied,"7 as found by the appellate court. [*43]
Furthermore, K.C.'s conditional response neither
required that K.C. be rehabilitated,8 nor relieved
defendant (who sought to exclude K.C. for cause) of his
burden of demonstrating, through questioning, that K.C.
lacked impartiality. See State v. Taylor, 99-1311, p. 8
(La. 1/17/01), 781 So.2d 1205, 1214 ("The party seeking
to [Pg 13] exclude the [prospective] [**15] juror has the
burden to demonstrate, through questioning, that the
[prospective] juror lacks impartiality.").
In Nix, 327 So.2d at 326, a murder trial, the trial court
denied defendant's challenge for cause of a prospective
juror who testified that the murder of his brother-in-law
might affect his thinking on the case. The equivocalness
of that statement, together with the prospective juror's
testimony "that he understood the principles of law upon
which he was instructed by the trial judge, including the
presumption of innocence, and that he could apply
those principles in the case at bar" was [**16] found by
this court to be sufficient to support the trial court's
denial of the defendant's challenge for cause. Id.
Other cases involving equivocal responses that were
found by this court to be insufficient to obtain reversal of
the trial court's denial of a challenge for cause include:
State v. Robinson, 353 So.2d 1001, 1004 (La. 1977)
(Where a prospective juror's impartiality was brought
into question by her "maybe not" response to whether
she would acquit the defendant of one crime even if she
thought he was guilty of other misconduct, this court
found no abuse of discretion in the trial court's denial of
a challenge for cause in light of the prospective juror's
subsequent responses which indicated she would be
impartial.); State v. Passman, 345 So.2d 874, 879-80
(La. 1977) (A prospective juror responded that he might
be influenced by whether the defendant took the stand

7 Cf.

Juniors, 03-2425 at 9, 915 So.2d at 305 (a challenge for
cause should be granted "if [the prospective juror's] responses
as a whole reveal facts from which bias, prejudice or inability
to render judgment according to law may be reasonably
implied.").
8 Cf.

State v. Mickelson, 12-2539, p. 23 (La. 9/3/14), 149
So.3d 178, 193 (which addressed the need "to rehabilitate a
prospective juror whose unequivocal statements in voir dire
evidence an inability to follow the law," implicating La. C.Cr.P.
art. 797(4). Mickelson does not mandate rehabilitation of a
prospective juror whose statements are equivocal and who
simply indicated that he or she might not be able to be fair.

on his own behalf, implicating La. C.Cr.P. art. 797(4).
Furthermore, when asked if he would have trouble
following the trial judge's instruction not to consider
whether the defendant testified in weighing the
defendant's guilt, the prospective juror in Passman
indicated that he "may have trouble and [he] may not."
However, on further questioning by the trial judge, the
prospective juror clarified that he would accept and
apply the [**17] law in deciding whether [Pg 14] the
defendant is guilty. This court found no abuse of
discretion in the denial of the defendant's challenge for
cause.); State v. Frazier, 283 So.2d 261, 263-64 (La.
1973) (an equivocal answer given by the prospective
juror ("I could try.") to the trial judge's question, "If
[defendant] did not take the stand do you feel that you
could return a fair and impartial verdict based on the
evidence and the testimony that you did hear," did not
amount to a refusal to accept the law as charged so as
to implicate La. C.Cr.P. art. 797(4).)
Also noteworthy on this point is State v. Robinson, 080652 (La.App. 4 Cir. 5/13/09), 11 So.3d 613, writ
denied, 09-1437 (La. 2/26/10), 28 So.3d 269. In
response to a question by the prosecutor, a prospective
juror in Robinson "stated during voir dire that she did
not know whether she could be impartial due to the fact
that three of her children had been crime victims." Id.,
08-0652 at 11, 11 So.3d at 620. In analyzing this
equivocal response, the appellate court found that the
prospective juror only "stated that she did not know if
she could [*44] be impartial and did not affirmatively
state she could not be" and observed "that defense
counsel never asked [the prospective juror] any
questions at all." Id, 08-0652 at 13, 11 So.3d at 621.
The Robinson court concluded that the prospective
juror's "responses as a whole [did not reveal] facts from
which bias, prejudice, or [**18] an inability to render
judgment according to law might be reasonably implied."
Id.
In State v. Ruffin, 11-0135 (La.App. 4 Cir. 12/21/11),
82 So.3d 497, writ denied sub nom., State ex rel.
Ruffin v. State, 12-0400 (La. 9/12/12), 98 So.3d 813, a
prospective juror responded that "it may" when asked if
"her niece's death would affect her ability to sit on the
jury." Id. 11-0135 at 25, 82 So.3d at 514. Upon further
questioning, this prospective juror revealed that serving
as a juror would be emotional for her in that it would
likely cause her to have flashbacks. She testified that
her [Pg 15] niece's killers were still at large, and she had
still not gotten over the incident. Id. Based on this
information, the defendant urged that the prospective
juror was unable "to be a rational and unbiased juror,"

Tori Simkovic

Appendix B, 14a

Page 9 of 10
234 So. 3d 34, *44; 2017 La. LEXIS 2321, **18
citing State v. Holmes, 619 So.2d 761 (La.App. 4 Cir.
1993), discussed infra. Id. Relying instead on its
decision in Robinson, the appellate court found no
abuse of discretion in the trial court's denial of the
defendant's challenge for cause since the prospective
juror "did not say unequivocally that her [great]-niece's
death would prevent her from being an impartial juror."
Id. 11-0135 at 26-27, 82 So.3d at 514-15.
In the instant case, in reviewing the trial judge's denial of
defendant's challenge, instead of relying on this court's
decision in Nix, the facts of which are strikingly similar
to those of the instant case, or its decisions in [**19]
Robinson and Ruffin, the appellate court relied on its
decision in Holmes. The defendant in Holmes was
charged with aggravated rape, aggravated kidnapping,
and aggravated crime against nature. On appeal of his
conviction for aggravated crime against nature, the
defendant argued that the trial court committed
reversible error in denying his "challenge for cause to a
[prospective] juror whose husband had previously been
held hostage and who could not say affirmatively that
the experience would not affect her ability to be fair."
Holmes, 619 So.2d at 762. When the members of the
jury venire were questioned by the state about why they
did not "feel like [they] could sit on this type of case," the
prospective juror stated that her "husband was held
hostage." Id. at 763. When the court asked if the fact
that her "husband was a victim of a crime" would cause
her to be unfair, she stated, "I think it might. I'm not real
sure." Id. During further questioning by the trial court,
the prospective juror explained that her husband's
kidnapping had been a very traumatic time for her. Id. at
764. Defense counsel followed up by asking the
prospective juror if she could "assure [him] that [Pg 16]
what happened to [her] husband would not affect [**20]
[her] in judging whether [the defendant] committed a
crime or not." Id. She relied, "I'm not sure." Id. In
reviewing the trial court's denial of the defendant's
challenge for cause as to this prospective juror, the
appellate court noted that the prospective juror stated
that she could not assure defense counsel "that her
husband's kidnapping would not affect her judgment in
[the] case" and observed that the state failed to
rehabilitate the prospective juror. Id. at 764-65.
Concluding that "[t]he trial court's finding that the
[prospective] juror could be fair is not supported by the
voir dire transcript," the appellate court held that "[t]he
[prospective] juror was not impartial and the [trial] court
abused its discretion by failing to excuse her for cause."
Id. at [*45] 765. The defendant's conviction was
reversed, and a new trial was ordered. Id.

Defendant argues, and the appellate court found, that
the facts of the instant case are more akin to those of
Holmes, while the state likens the facts of this case
more to the facts of Robinson and Ruffin. Unlike
Holmes, the prospective juror in this matter (K.C.) was
not questioned further by anyone as to her "[y]es, it
might" response. For this reason, the instant [**21]
case, like Robinson and Ruffin, is clearly
distinguishable from Holmes.9 As in Nix, K.C.'s use of
the word "might" relative to the impact that her family
member's ordeal as a victim of a similar crime would
have on K.C.'s ability to be impartial in the instant cases
rendered her response equivocal. Because of the
equivocalness of K.C.'s response, the need for
rehabilitation of K.C. by the state had not been triggered
in this case. Furthermore, unlike the prospective juror in
Holmes, K.C. was never asked to assure that she could
be impartial to the defendant in these cases.
[Pg 17] Clearly, HN8[ ] La. C.Cr.P. art. 797(2) does
not require that a prospective juror state with absolute
certainty that he/she cannot be impartial in order to be
removed for cause. However, in the absence of such a
statement, the trial court's denial of a challenge for
cause will not be reversed if, on review of the entire voir
dire examination, the prospective juror demonstrates a
willingness and ability to decide the case impartially
according to the law and evidence. Passman, 345
So.2d at 880. Reversal is appropriate only where it
appears, upon review of the voir dire examination as a
whole, that the trial judge's exercise of that
discretion [**22] has been arbitrary or unreasonable,
resulting in prejudice to the accused. Id.; see Dorsey,
10-0216 at 28, 74 So.3d at 625; State v. Lee, 93-2810,
p. 9 (La. 5/23/94), 637 So.2d 102, 108. This standard of
review is utilized "because the trial judge has the benefit
of seeing the facial expressions and hearing the vocal
intonations of the members of the jury venire as they
respond to questions by the parties' attorneys." Lee, 932810 at 9, 637 So.2d at 108. "Such expressions and
intonations are not readily apparent at the appellate
level where review is based on a cold record." Id. As
noted in State v. Miller, 99-0192 (La. 9/6/00), 776
So.2d 396, because of the "complicated and oftentimes
daunting" task faced by a trial court in deciding
"challenges for cause of prospective jurors who give
equivocal ... responses during voir dire," "an appellate
court should accord great deference to the [trial] court's

9 Neither

party sought writs in this court in Holmes. Without a
review of the full voir dire in Holmes, this court expresses no
opinion regarding the appellate court's decision therein.

Tori Simkovic

Appendix B, 15a

Page 10 of 10
234 So. 3d 34, *45; 2017 La. LEXIS 2321, **22
ruling on a challenge for cause, which is necessarily
based, in part, on the court's personal observations
during questioning." Id., 99-0192 at 14, 776 So.2d at
405-06. A review of the entire record of the voir dire
proceedings in this case does not suggest that the trial
court's exercise of the sound discretion afforded in
determining K.C.'s competency was arbitrary or
unreasonable, to the prejudicial injury of the defendant
in obtaining a fair and [Pg 18] impartial [**23] trial.10
Furthermore, the appellate court erred to the extent that
it found [*46] K.C.'s responses as a whole reveal facts
from which "bias, prejudice or inability to render
judgment according to law may be reasonably implied."
Accordingly, defendant failed to show any abuse of
discretion in the trial court's refusal to grant his
challenge for cause as to K.C.

DECREE
For these reasons, the decision of the appellate court is
reversed. This matter is remanded to the appellate court
for determination of the remaining issue raised on
appeal by defendant.
REVERSED and REMANDED.
Dissent by: Hughes; Guidry

10 Early

on in the jury selection process, before voir dire of
individuals began, the trial judge read aloud to the venire the
relevant parts of the indictment, which alleged two counts of
aggravated rape. The trial judge then asked generally:
"[B]ased on what you've heard, any problems with difficulty in
serving on a jury involved in this type of a situation? Anyone?"
There was no response from the prospective jurors. Shortly
thereafter, upon hearing the definition of aggravated rape and
being asked if there were any questions or comments, the
prospective jurors again remained silent. Then, just before
individual voir dire commenced, the trial judge asked the
prospective jurors: "Can anybody think of any reasons based
on the things we've discussed so far why you couldn't be a fair
and impartial juror in this case, anything whatsoever?" Once
more, the trial judge was met with no response. Finally, in the
middle of the state's voir dire, the trial judge intervened to
clarify the state's burden of proof, asking at the end if
everyone followed what the trial judge told them; the response
from the venire was "[y]es." Also noteworthy is the fact that
K.C. is an attorney, trained in the law and legal concepts
applicable in a criminal trial, including the obligation of a juror
to be fair and impartial. In fact, K.C. advised she had
previously served on a jury in a criminal case in which the
defendant was acquitted, a favorable response for a
defendant.

Dissent
Hughes, J., dissents for the reasons given by
Guidry, J.
Guidry, J., dissents and assigns reasons.
I respectfully dissent from the majority's decision today.
In this case, the potential juror expressed during voir
dire an undoubtedly equivocal response that she "might"
be impartial or biased against this defendant, charged
with two counts of aggravated rape, because her mother
had been raped and murdered. In the face of this clear
expression of possible bias, there was no follow-up
questioning by the trial court, the state, or the defense
as to whether the juror would be willing and able [**24]
to decide the case impartially according to the law and
evidence. The trial court, when the prospective juror
was later challenged for cause, did not allow a full
discussion of the juror's response regarding her possible
bias, and more troublingly, insisted the potential juror
had not said anything that would bring into question her
inability to be impartial, when in fact she did. See Anti,
pp. 6 and 8; State v. Dotson, 15-0191 p. 8 (La. App. 4
Cir. 2/17/16), 187 So.3d 79, 83-84.
This court will not reverse a trial court's ruling on a
challenge for cause unless it appears, upon review of
the voir dire examination as a whole, that the trial
judge's exercise of its discretion has been arbitrary or
unreasonable, resulting in prejudice to the accused.
Anti, p. 17. While deference is certainly owed to the trial
court's determination, where due, I find in this case the
trial court abused its discretion, because, upon review of
the prospective juror's voir dire examination as a whole,
her bias, prejudice, or the inability to render judgment
according to the law may be reasonably implied.
Accordingly, I would affirm the appellate court's
decision.

End of Document

Tori Simkovic

Appendix B, 16a

Neutral
As of: June 17, 2020 7:09 PM Z

State v. Dotson
Court of Appeal of Louisiana, Fourth Circuit
December 18, 2017, Decided
NO. 2015-KA-0191
Reporter
2017 La. App. LEXIS 2526 *; 2015-0191 (La.App. 4 Cir. 12/18/17);

Core Terms
mistrial, fingerprint, database, statewide, admonish,
chambers, arrest

STATE OF LOUISIANA VERSUS DERRICK A.
DOTSON

Case Summary
Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.

Subsequent History: Writ denied by State v. Dotson,
259 So. 3d 340, 2018 La. LEXIS 3450 (La., Dec. 17,
2018)
Writ denied by State v. Dotson, 2020 La. LEXIS 1046
(La., June 3, 2020)

Overview
HOLDINGS: [1]-The court affirmed defendant's
conviction for forcible rape because the trial court did
not abuse its discretion in refusing to grant his motion
for mistrial after the State's DNA expert testified that his
DNA profile had previously been put into a statewide
database where defendant would have needed to testify
regardless to support his defense that he had
consensual relations with the victims, the extreme
remedy of mistrial was not warranted, and the defendant
did not request an admonition before or after the trial
court denied his motion for a mistrial.

Prior
History: [*1] APPEAL
FROM
CRIMINAL
DISTRICT COURT ORLEANS PARISH. NO. 514-318,
SECTION "G". Honorable Byron C. Williams, Judge.
Outcome
Judgment affirmed.
State v. Dotson, 234 So. 3d 34, 2017 La. LEXIS 2321
(La., Oct. 18, 2017)

Disposition: AFFIRMED.

LexisNexis® Headnotes

Criminal Law & Procedure > ... > Standards of
Tori Simkovic

Appendix C, 17a

Page 2 of 5
2017 La. App. LEXIS 2526, *1
Review > Abuse of Discretion > Mistrial
Criminal Law & Procedure > Trials > Motions for
Mistrial
HN1[

] Abuse of Discretion, Mistrial

Mistrial is an extreme remedy and should only be used
when substantial prejudice to the defendant is shown. A
trial judge has broad discretion in determining whether
conduct is so prejudicial as to deprive an accused of a
fair trial. Further, a trial court's decision concerning
whether actual prejudice has occurred and whether a
mistrial is warranted will not be overturned on appeal
absent an abuse of that discretion.

Counsel: Leon A. Cannizzaro, Jr., District Attorney,
Matthew C. Kirkham, Assistant District Attorney, Parish
of Orleans, New Orleans, LA, FOR APPELLEE/STATE
OF LOUISIANA.
Derrick Dotson #336610, Louisiana State Penitentiary,
ANGOLA, LA; Mary Constance Hanes, LOUISIANA
APPELLATE PROJECT, New Orleans, LA, COUNSEL
FOR DEFENDANT/APPELLANT.

Judges: Court composed of Judge Terri F. Love, Judge
Roland L. Belsome, Judge Joy Cossich Lobrano.
LOBRANO, J., CONCURS IN THE RESULT.

Opinion by: Roland L. Belsome

Opinion
[Pg 1] The Defendant, Derrick Dotson, was convicted of
forcible rape and sentenced to life imprisonment at hard
labor as a third-felony habitual offender, without benefit
of parole, probation, or suspension of sentence. The
defendant appealed his conviction and sentence. In
State v. Dotson, this Court found that the trial court
abused its discretion in denying defendant's challenge

for cause to a prospective juror who indicated that she
did not know if she could be impartial.1 After granting
certiorari, the Louisiana Supreme Court, reversed and
remanded the matter to this Court for consideration of
the [*2] Defendant's remaining assignment of error.2
In the Defendant's remaining assignment of error, he
contends that the trial court abused its discretion in
refusing to grant his motion for mistrial after the State's
DNA expert testified that his DNA profile had previously
been put into a statewide database.
[Pg 2] The testimony at issue was from Anne
Montgomery, the State's expert in the field of molecular
biology and DNA analysis. Ms. Montgomery testified
that the Defendant had been identified through a
statewide DNA search. The pertinent part of her
testimony for this assignment of error is as follows:
Again, this is another investigative lead letter. It's
dated August 5, 2010, and this is now - - we know
that the case from 1994 was hitting to the case in
1996. Now, in August of 2010, based on the state
search, not the local search, the state search, they
identified an individual who was matching these two
cases and identified him as Derrick Dotson and
submitted that information to the lab, and before
they send the letter to the laboratory, the state
police reconfirms that profile in their system; they
go back to the original swab, rerun it, make sure it's
the same one that was identified [*3] as being
Derrick Dotson. Once they confirm that in their lab,
they send the investigative lead letter to the local
jurisdiction. Their policy is such that, if NOPD or
whoever the jurisdiction is [sic] wants to pursue the
lead, that another specimen must be collected from
the individual to confirm the match. This step is
required by the federal guidelines that regulate the
national DNA database, and so that is what Exhibit
9 is.
At some later time in Ms. Montgomery's testimony,
defense counsel stated: "Your Honor, I'd like --." The
trial court quickly responded by asking counsel to
approach, whereupon an off-the-record bench
conference was held. The trial court then (on the record)
advised the jury that it had to discuss a matter with the

1 State

v. Dotson, 15-0191 (La.App. 4 Cir. 2/17/16), 187 So.
3d 79 (Lobrano, J., dissenting).
2 State

v. Dotson, 16-0473 (La. 10/18/17), 234 So. 3d 34,
2017 WL 4681942.

Tori Simkovic

Appendix C, 18a

Page 3 of 5
2017 La. App. LEXIS 2526, *3
attorneys in chambers. Once in chambers, the trial court
noted that at the time defense counsel began to raise its
objection (as quoted above), the court itself had been
preparing to call counsel into chambers because it "had
some concerns about where the testimony [of Ms.
Montgomery] was going." The trial court then addressed
the defendant's objection, which the court characterized
as being "to the witness reviewing some hearsay
material."3 The trial [*4] court addressed that hearsay
[Pg 3] objection, finding it had no merit. At that time,
defense counsel made no further comments.
The trial court then proceeded to detail the concern that
led it to independently decide to bring counsel into
chambers, stating:
I have a problem that, with this testimony, that's a
little bit more troublesome than whether it's
hearsay, and that is - - I mentioned to the attorneys
at the bench, that this testimony regarding the
Defendant's DNA being part of a statewide
database could, if it goes any further, result in
testimony regarding other crimes' evidence that has
not been the subject of a Prieur hearing, ..."
Then, the trial court ended the in-chambers conference
by telling the State: "I don't want to hear statewide
database again, okay?" After conferring with Ms.
Montgomery privately, the State resumed direct
examination. Once Ms. Montgomery's testimony was
concluded, the State went on to present a second DNA
expert and then rested its case.
Next, defense counsel made an oral motion for a
mistrial, stating:
We move for a mistrial based upon the testimony of
Ms. Montgomery indicating she's shift [sic] the
burden of proof to my client compelling him to
take [*5] the stand by indicating that my client's
DNA is in the statewide database.
On appeal, the Defendant contends that Ms.
Montgomery's reference to a "state police system"
implied that he had been convicted of a prior crime,
possibly a sex-related offense, compelling him to testify.

In the following cases, upon the request of the
defendant or the state, the court shall promptly
admonish the jury to disregard a remark or
comment [Pg 4] made during the trial, or in
argument within the hearing of the jury, when the
remark is irrelevant or immaterial and of such a
nature that it might create prejudice against the
defendant, or the state, in the mind of the jury:
***
(2) When the remark or comment is made by a
witness or person other than the judge, district
attorney, or a court official, regardless of whether
the remark or comment is within the scope of Article
770.
In such cases, on motion of the defendant, the
court may grant a mistrial if it is satisfied [*6] that
an admonition is not sufficient to assure the
defendant a fair trial. (Footnote supplied).
HN1[ ] Mistrial is an extreme remedy and should only
be used when substantial prejudice to the defendant is
shown.4 "[A] trial judge has broad discretion in
determining whether conduct is so prejudicial as to
deprive an accused of a fair trial."5 Further, a trial court's
decision concerning whether actual prejudice has
occurred and whether a mistrial is warranted will not be
overturned on appeal absent an abuse of that
discretion.6
In denying the Defendant's motion for mistrial the trial
court noted that it had called the attorneys into
chambers to caution the State against eliciting from Ms.
Montgomery references to a "statewide database," and
thereafter Ms. Montgomery refrained from referencing
the database. Additionally, at no time during her
testimony did Ms. Montgomery refer to another crime or
bad act committed by the Defendant.
Although it was not an issue regarding DNA testimony,
this Court addressed a similar situation involving

4 State

When the oral motion for mistrial was asserted, defense
counsel did not provide statutory authority for the
motion. However, the argument presented on appeal is
that the Defendant was entitled to a mistrial under La.
C.Cr. P. art. 771(2), which states in pertinent part:
3 This

objection was directed at Ms. Montgomery's testimony
regarding a DNA report.

v. Burton, 09-0826, p. 10 (La. App. 4 Cir. 7/14/10), 43
So. 3d 1073, 1080 (quoting State v. Castleberry, 98-1388, p.
22 (La. 4/13/99), 758 So. 2d 749, 768).
5 State

v. Leonard, 05-1382, p. 11 (La. 6/16/06), 932 So. 2d
660, 667; State v. Greenberry, 14-0335, p. 20 (La. App. 4 Cir.
11/19/14), 154 So. 3d 700, 712.
6 Greenberry,

supra, citing State v. Maxwell, 11-0564, p. 25
(La. App. 4 Cir. 12/21/11), 83 So. 3d 113, 128.

Tori Simkovic

Appendix C, 19a

Page 4 of 5
2017 La. App. LEXIS 2526, *6
fingerprint evidence in State v. Smith.7 There, the [Pg 5]
defendant moved for a mistrial on the ground that the
State's fingerprint expert impermissibly suggested
to [*7] the jury that the defendant had a prior criminal
record when the officer testified that he was able to
compare latent fingerprints collected at the crime scene
with fingerprints that were "on file" for the defendant.8
The trial court denied the motion, offering to admonish
the jury, but the defendant rejected that offer. The trial
court instructed the expert not to testify as to when or
how the defendant's fingerprints were obtained. On
appeal, this Court found no merit to the defendant's
argument that the trial court had erred in denying his
motion for mistrial, stating that because the "file"
referenced by the expert could have been made in
conjunction with the present case and no mention was
made of prior convictions, an admonishment to jury, "if
anything," was all that had been necessary.9
The defendant in Smith also moved for a second mistrial
based on an alleged reference to other crimes
committed by him when a detective testified that he
compiled a six-person photo lineup "based on previous
arrest information."10 This court did find that the
detective's explicit reference to "previous arrest
information" suggested to the jury that he was referring
to a prior arrest other [*8] than the one for the offense
for which the defendant was being tried. This court
noted that, as with the defendant's first motion for
mistrial relating to the fingerprint evidence, the trial court
had denied the motion for mistrial but offered to
admonish the jury, which the defendant declined. This
Court ultimately found that the trial court did not err in
denying the motion for a mistrial and offering instead to
give only an admonishment.
[Pg 6] Finally, in Smith, the defendant also argued on
appeal that the above references to his criminal history
"forced him to make the last-minute decision to testify in
his own defense at trial."11 This claim essentially is the
same claim counsel for defendant in the present case
cited as the basis of his oral motion for mistrial, as
quoted hereinabove. This Court soundly rejected that

argument in Smith, stating:
[B]y way of understatement, we find this argument
difficult to accept. Without [the defendant's]
testimony there would have been no testimony or
evidence to support his claims of self-defense and
accident. The detective's statement, moreover, was
vague, tangential, and, as characterized by defense
counsel, unintentional. It is not plausible [*9] that
[the defendant] would believe he was compelled to
take the witness stand and admit that he was
convicted in 2003 of possession of marijuana and
cocaine ( La. C.E. art. 609.1 B) in order to offset
that marginal comment by the detective. An
admonition to the jury, at most, would have
sufficed; no mistrial was necessary or required.12
This court's reasoning in Smith is applicable in the
present case.13 Ms. Montgomery made a vague
reference to defendant's DNA being in a "statewide
database" or a "state police system." As with the
fingerprint expert's reference to defendant's fingerprints
being "on file" in Smith. Moreover, as to a detective's
subsequent reference in Smith to "previous arrest
information" in connection with composing a photo
lineup with defendant's photo in it, this Court reasoned
that even if that comment suggested to the jury that he
was referring to a prior arrest other than the one for the
offense for which he was being tried, a mistrial was not
warranted. Further, like in Smith, the Defendant needed
to testify to support his [Pg 7] defense that he had
consensual relations with the victims. Just as in Smith,
the extreme remedy of mistrial was not warranted, and
the Defendant did [*10] not request an admonition
before or after the trial court denied his motion for a
mistrial.
For the reasons discussed, Derrick Dotson's conviction
and sentence are affirmed.
AFFIRMED

12 Id.

7 11-0664

(La. App. 4 Cir. 1/30/13), 108 So. 3d 376.

8 Smith,

11-0664, p. 16, 108 So. 3d at 386-387.

9 Smith,

11-0664, p. 16-17, 108 So. 3d at 387.

10 Id.
11 Smith,

11-0664, p. 17-18, 108 So. 3d at 387.

13 See

also State v. Livas, 527 So. 2d 398, 400 (La. App. 4
Cir. 1988) (trial court did not err in permitting police officer to
refer to the defendant's "B of I" photographs or in denying the
defendant's motion for mistrial based on an inadmissible
reference to another crime committed by the defendant—
"[t]here is a great probability the jurors were not aware that 'B
of I' meant the Bureau of Investigation or that the photographs
were secured following the defendant's involvement in another
criminal act."

Tori Simkovic

Appendix C, 20a

Page 5 of 5
2017 La. App. LEXIS 2526, *10
LOBRANO, J., CONCURS IN THE RESULT.

End of Document

Tori Simkovic

Appendix C, 21a

Neutral
As of: June 16, 2020 5:11 PM Z

State v. Dotson
Supreme Court of Louisiana
December 17, 2018, Decided
NO. 2018-KO-0177
Reporter
259 So. 3d 340 *; 2018 La. LEXIS 3450 **; 2018-0177 (La. 12/17/18);; 2018 WL 6630254

STATE OF LOUISIANA VS. DERRICK A. DOTSON

Notice: DECISION WITHOUT PUBLISHED OPINION

Prior History: [**1] IN RE: Derrick A. Dotson; Defendant; Applying For Writ of Certiorari and/or
Review, Parish of Orleans, Criminal District Court Div.
G, No. 514-318; to the Court of Appeal, Fourth Circuit,
No. 2015-KA-0191.

State v. Dotson, 2017 La. App. LEXIS 2526 (La.App. 4
Cir., Dec. 18, 2017)

Judges: Marcus R. Clark, Bernette J. Johnson, John L.
Weimer, Greg G. Guidry, Jefferson D. Hughes III, Scott
J. Crichton, James T. Genovese.

Opinion
[*341] Denied.

End of Document

Tori Simkovic

Appendix D, 22a

Appendix E, 23a

Appendix F, 24a

Neutral
As of: June 16, 2020 5:06 PM Z

State v. Dotson
Supreme Court of Louisiana
June 3, 2020, Decided
No.2019-KH-01828
Reporter
2020 La. LEXIS 1046 *; 2019-01828 (La. 06/03/20);

STATE OF LOUISIANA VS. DERRICK A. DOTSON

Writ application denied.
Johnson, C.J., would grant and docket and assigns
reasons.

Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.

Prior History: [*1] IN RE: Derrick A. Dotson Applicant Defendant; Applying For Supervisory Writ,
Parish of Orleans Criminal, Criminal District Court
Number(s) 514-318, Court of Appeal, Fourth Circuit,
Number(s) 2019-K-0651.

State v. Dotson, 2017 La. App. LEXIS 2526 (La.App. 4
Cir., Dec. 18, 2017)

Core Terms
non-unanimous, retroactive, disproportionately,
accuracy, jurors, racist, collateral, watershed, abandon

Judges: Scott J. Crichton, Jefferson D. Hughes, III,
James T. Genovese, William J. "Will" Crain, James H.
Boddie. Johnson, C.J., would grant and docket and
assigns reasons. Weimer, J., would grant and docket.

Opinion

Weimer, J., would grant and docket.
[Pg 1] Johnson, C.J., would grant and docket and
assigns reasons.
I would grant the writ to clarify that the Supreme Court's
recent decision in Ramos v. Louisiana, 140 S. Ct. 1390,
206 L. Ed. 2d 583 (2020) should be applied retroactively
to cases on state collateral review. It is time we
abandoned our use of Teague v. Lane, 489 U.S. 288,
109 S. Ct. 1060, 103 L. Ed. 2d 334 (1989) in favor of a
retroactivity test that takes into account the harm done
by the past use of non-unanimous jury verdicts in
Louisiana courts.
In 1992, we adopted Teague's test for determining
whether decisions affecting rights of criminal procedure
would be retroactively applied in cases on state
collateral review. State ex rel. Taylor v. Whitley, 606 So.
2d 1292, 1296 (La. 1992). Teague only requires
retroactive application of a new rule if it is a "watershed
rul[e] of criminal procedure" that [*2] "implicates the
fundamental fairness [and accuracy]" of the criminal
proceeding. Teague, 489 U.S. at 311-312.
In my view, Ramos announces a watershed rule
implicating fundamental fairness and accuracy. "The
Sixth Amendment right to a jury trial is 'fundamental to
the American scheme of justice' and incorporated
against the States under the Fourteenth Amendment."
Ramos, 140 S. Ct. at 1397 (citing Duncan v. Louisiana,
391 U.S. 145, 148-50, 88 S. Ct. 1444, 20 L. Ed. 2d 491
(1968)). The law that Ramos struck came from the postReconstruction Louisiana Constitutional Convention of
1898, which sought to "establish the supremacy of the
white race." Id. at 1394. It "approved non-unanimous
juries as one pillar of a comprehensive and brutal

Tori Simkovic

Appendix G, 25a
Appendix E, 23a

Page 2 of 2
2020 La. LEXIS 1046, *2
program of racist Jim Crow measures against AfricanAmericans, especially in voting and jury service." [Pg 2]
Id. at 1417 (Kavanaugh, J., concurring in part). The
point was to make it easier to convict African American
defendants at criminal trials, even when some of the
jurors themselves were African American. And it
worked. Data contained in the Ramos record shows that
votes of Black jurors have been disproportionately
silenced and that Black defendants have been
disproportionately affected by non-unanimous verdicts.
Approximately 32% of Louisiana's population is Black,
yet 69.9% of prisoners incarcerated for felony
convictions are Black. Clearly [*3] our longtime use of a
law deliberately designed to enable majority-White juries
to ignore the opinions and votes of Black jurors at trials
of Black defendants has affected the fundamental
fairness and accuracy of proceedings.
There are some rules of procedure untethered to our
history of discrimination against African Americans
where the question of retroactive application may carry
less weight. But then non-unanimous jury rule was
intentionally racist and has disproportionately affected
Black Louisiana citizens for 120 years. There is no
principled or moral justification for differentiating
between the remedy for a prisoner convicted by that law
whose case is on direct review and one whose
conviction is final. We should abandon our use of the
Teague test, which—informed by federalism concerns—
has never had any logical application in state court
anyway, and formulate a new retroactivity test for
Louisiana that takes into account the racist origins or
disproportionate impact of a stricken law. We should not
fear a "crushing" "tsunami" of follow-on litigation."
Ramos, 140 S. Ct. at 1406. The cost of giving new trials
to defendants convicted by non-unanimous juries is
much less than the social cost of perpetuating—by [*4]
our own inaction—a deeply-ingrained distrust of law
enforcement, criminal justice, and Louisiana's
government institutions.
For these reasons, which I explain further in State v.
Gipson, 19-KH-1815, regardless of the words or legal
grounds a defendant uses to challenge his conviction, I
believe Ramos should apply to anyone convicted by a
non-unanimous jury.

End of Document

Tori Simkovic

Appendix G, 26a
Appendix E, 24a

